No.

In the Supreme Court of the United States

John Hsu, Petitioner,
v.
City of Berkeley, Respondent.

PROOF OF SERVICE
I, the undersigned, declare under penalty of perjury that on the date of
October 1, 2019,1 served the enclosed Petition for a Writ of Certiorari on the
defendant to the above proceeding by depositing an envelope containing the above
document in the United States mail properly addressed as follows to the defendant
with first-class postage prepaid:
City of Berkeley
2180 Milvia Street
Berkeley, CA 94704

Eliy&h Arnon
2138 University Avenue
Berkeley, CA 94704

